                                                          IG-00-009




AUDIT
                           STAFFING OF THE EXPENDABLE LAUNCH
REPORT                       VEHICLE PROGRAM OFFICE AT THE
                                 KENNEDY SPACE CENTER

                                      February 23, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

                Assistant Inspector General for Auditing
                Code W
                300 E Street, SW
                Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html




Acronyms

ELV             Expendable Launch Vehicle
FMFIA           Federal Managers’ Financial Integrity Act
FY              Fiscal Year
GAO             General Accounting Office
GPRA            Government Performance and Results Act
NMI             NASA Management Instruction
NPG             NASA Procedures and Guidelines
OIG             Office of Inspector General
OSF             Office of Space Flight
PCA             Program Commitment Agreement
SELVS           Small Expendable Launch Vehicle Services
W                                                                      February 23, 2000




TO:          A/Administrator

FROM:        W/Inspector General

SUBJECT: INFORMATION: Staffing of the Expendable Launch Vehicle Program Office at the
         Kennedy Space Center
         Report Number IG-00-009


The NASA Office of Inspector General has completed an audit of Staffing of the Expendable Launch
Vehicle (ELV) Program Office at the Kennedy Space Center (Kennedy). We found that Kennedy
adequately planned and managed the award of the Small ELV Services contracts. However,
management oversight of staffing plans during and following the consolidation of the ELV Program
Office to Kennedy was inadequate and will affect Kennedy’s ability to meet strategic goals and may
adversely affect the cost and scheduling of future Earth Science and Space Science missions.

Background

On October 1, 1998, Kennedy assumed full responsibility as the Program Office for the Acquisition and
Management of ELV services contracts, which includes full contract and budget authority. Kennedy
managed the procurement and resulting follow-on contracts awarded on October 28, 1998. Prior to
the consolidation, NASA’s ELV Program had been distributed across multiple NASA Centers. This
distribution of ELV Program office responsibility, prior to the consolidation, caused a number of
mission-critical skills to be decentralized and duplicated among the Centers. On October 24, 1997, the
Associate Administrator for the Office of Space Flight, with the concurrence of the NASA Deputy
Administrator (Technical), issued a letter that authorized the establishment of a Lead Center for the
Acquisition and Management of ELV Launch Services at Kennedy.

The ELV Program Office at Kennedy, provides a single focus for the acquisition and management of all
ELV launch services while affording NASA the benefits of consolidated and streamlined technical and
administrative functions. The reduction of program interfaces and resulting consolidation of insight of
commercial launch services was intended to merge NASA technical management and enable a single
organization to rebuild technical expertise and increase efficiency and effectiveness.
                                                                                               2



Recommendations

We recommended that the Associate Administrator for Space Flight (1) establish clear, realistic staffing
goals that align with the strategic performance goals of the ELV Program Office at Kennedy and (2)
develop strategic human resources management strategies to ensure continuity of needed skills and
abilities. We also recommended that the Chief Engineer incorporate in the NASA Procedures and
Guidelines 7120.5A (3) a clear link between strategic performance goals and the resources that will
accomplish those goals and the strategic human resources management strategies needed to ensure
continuity of needed skills and abilities.

Management Response and OIG Evaluation

Management concurred with the findings and recommendations. The Associate Administrator for
Space Flight authorized Kennedy to hire 15 additional engineers in support of the ELV Program Office
with additional hires anticipated in fiscal year 2001, pending the outcome of the ongoing budget process.
The Office of Space Flight has authorized immediate additional hiring at all Office of Space Flight
Centers to address workload requirements and to ensure continuity of needed skills and abilities to meet
the expected increased pace of activity. The Chief Engineer agreed to make revisions to the NASA
Procedures and Guidelines 7120.5A, “NASA Program and Project Management Processes and
Requirements.”

We consider two of the four recommendations dispositioned and closed for reporting purposes. We
are monitoring recommendation three and four pending implementation of agreed-to corrective actions.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Staffing of the Expendable
  Launch Vehicle Program Office at Kennedy Space Center
              FINAL REPORT
 AUDIT OF STAFFING OF THE EXPENDABLE LAUNCH
VEHICLE PROGRAM OFFICE AT THE KENNEDY SPACE
                   CENTER
W                                                                       February 23, 2000




TO:              M/Associate Administrator for Space Flight
                 AE/Chief Engineer

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of Staffing of the Expendable Launch Vehicle Program Office
                 at the Kennedy Space Center
                 Assignment Number A9904400
                 Report Number IG-00-009


The subject final report is provided for your use. Our evaluation of your response is incorporated into
the body of the report. The corrective actions completed on recommendations 1 and 2 were
responsive, and those recommendations are considered closed for reporting purposes. The responses
to recommendations 3 and 4 are not fully responsive to the intent of our recommendation. NASA
management needs to take additional corrective actions to resolve these issues, which are provided in
our evaluations of your responses. Accordingly, recommendations 3 and 4 will remain open for
reporting purposes pending implementation of agreed-to corrective actions. Please notify us when
action has been completed on recommendations 3 and 4.

If you have questions concerning the report, please contact Mr. Daniel J. Samoviski, Program Director,
Earth and Space Science Audits, at (301) 286-0497, or Ms. Esther A. Judd, Program Manager, at
(301) 286-3359. We appreciate the courtesies extended to the audit staff. See Appendix G for the
report distribution.

[Original signed by]


Russell A. Rau
                                              2


cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science
                               NASA Office of Inspector General

IG-00-009                                                                                February 23, 2000
 A9904400

             Staffing of the Expendable Launch Vehicle Program Office
                             at the Kennedy Space Center


Introduction

The NASA Office of Inspector General (OIG) completed a survey of the Small Expendable Launch
Vehicle Services. This survey was initiated to address issues identified during a previous OIG review.1
The overall objective was to determine whether Kennedy Space Center (Kennedy) appropriately
planned and effectively managed the Small Expendable Launch Vehicle Services (SELVS II – KSC)
contract awards. In addition, we evaluated the impact of the consolidation2 of the Expendable Launch
Vehicle (ELV) Program at Kennedy. See Appendix A for details on our scope and methodology.

The SEVLS II – KSC procurement was to award multiple, indefinite delivery/indefinite quantity
contracts to provide launch services for NASA and NASA-sponsored small class payloads.3 The small
class payloads generally will support the goals and objectives of NASA’s Earth Science and Space
Science Enterprises. NASA anticipates launching 16 missions over the 5-year period of contract
performance with a total contract value not to exceed $400 million. On October 28, 1998, Kennedy
awarded contracts to Orbital Sciences Corporation (contract NAS10-99005) and Coleman Research
Corporation (contract NAS10-99010). To date, NASA has issued two launch service task orders to
Orbital Sciences Corporation, but no missions have been launched.


Results in Brief

In general, Kennedy appropriately planned and effectively managed the award of the SELVS II – KSC
contracts. The contracts were designed to ensure mission performance and, at this point, are meeting
the customer’s needs. However, management oversight of staffing plans during and following the
consolidation of the ELV program to Kennedy was inadequate and will affect Kennedy’s ability to meet
strategic goals and may adversely affect the cost and scheduling of future Earth Science and Space
Science missions.

1
  The previous review was the Launch Services for Earth Science Missions (Assignment Number AHA98048),
completed February 16, 1999.
2
  On October 1, 1998, Kennedy assumed responsibility for ELV services. This work was previously distributed across
NASA as described in the Background section of the report.
3
  Small payloads require the entire lift capability of a Pegasus, Athena I, or Taurus rocket. The estimated payload
capacity each vehicle is able to deliver into low-Earth orbit is as follows: Pegasus, 500 pounds; Athena I, 1,700
pounds; and Taurus, 3,000 pounds.
Additionally, long-term agreements between Marshall Space Flight Center (Marshall) and Kennedy for
vehicle engineering have not yet been completed. See Appendix B for details on this issue.

Background

On October 1, 1998, Kennedy assumed full responsibility as the Program Office for the Acquisition and
Management of ELV services contracts, which includes full contract and budget authority. Kennedy
managed the procurement and resulting follow-on contracts (SELVS II - KSC) awarded on October
28, 1998. Prior to the consolidation, NASA’s ELV Program had been distributed across multiple
NASA Centers by vehicle class4 and program function. Goddard Space Flight Center (Goddard)
performed the acquisition and management of Ultra-Lite, Small, Medium-Lite, and Medium class ELV
launch services. Glenn Research Center (Glenn) performed the acquisition and management of
Intermediate/Large class ELV launch services. Kennedy managed the NASA launch site activities for
launches from Cape Canaveral Air Station, Vandenberg Air Force Base, and Wallops Flight Facility.
Marshall was, and still is, responsible for vehicle engineering and insight5 for development vehicles that
lack a flight history. The distribution of ELV Program office responsibility prior to the consolidation
caused a number of mission-critical skills to be decentralized and duplicated among the Centers. On
October 24, 1997, the Associate Administrator for the Office of Space Flight, with the concurrence of
the NASA Deputy Administrator (Technical), issued a letter that authorized the establishment of a Lead
Center for the Acquisition and Management of ELV Launch Services at Kennedy.

The ELV Program Office at Kennedy, which was established in response to the NASA Strategic Plan,
provides a single focus for the acquisition and management of all ELV launch services while affording
NASA the benefits of consolidated and streamlined technical and administrative functions. The
reduction of program interfaces and resulting consolidation of insight of commercial launch services was
intended to merge NASA technical management and enable a single organization to rebuild technical
expertise and increase efficiency and effectiveness.

Strategic Human Resources Management

Finding. The Office of Space Flight (OSF) did not integrate strategic human resources management
into the staff planning of the ELV Program Office at Kennedy. Neither the NASA strategic planning
process nor NASA Procedures and Guidelines (NPG) 7120.5A, “NASA Program and Project
Management Processes and Requirements,” specifically addresses the use of strategic human resources
management to align the staffing with the goals of the program. As a result, the ELV Program Office
may be unable to meet current customer demand without the use of overtime and compensatory time.
The future launch demand is expected to increase, which will affect Kennedy’s ability to meet strategic
goals and may adversely affect the cost and scheduling of future Earth Science and Space Science
missions.


4
 The classes are Ultra-Lite, Small, Medium-Lite, Medium, and Intermediate/Large.
5
 Insight is a process of gathering a minimum set of product or process data that provides adequate visibility into the
integrity of the product or process. Insight does not constitute control or management of the process.

                                                          2
Strategic Human Resources Management is Essential

As required by the Federal Managers’ Financial Integrity Act (FMFIA) of 1982, the General
Accounting Office (GAO) issued standards for internal control in government.6 The standards define
the minimum level of quality acceptable for internal control in government and provide the basis against
which internal control is to be evaluated. GAO recognizes that effective management of human
resources is essential to achieving results and is an important part of internal control. As a part of
workforce planning, management should consider how best to retain valuable employees, plan for their
eventual succession, and ensure continuity of needed skills and abilities.

A renewed focus on internal control was prompted by the Government Performance and Results Act
(GPRA) of 1993, which requires agencies to clarify their missions, set strategic and annual performance
goals, and measure and report on performance toward those goals. Internal control plays a significant
role in helping managers achieve those goals.

If the government is to continue to successfully and effectively improve its operations, agency heads
must make a conscious effort to integrate strategic human resources management into their agency’s
planning and decision-making process.7

NASA’s Performance Plans and Guidance Lack Strategic Human Resources Management
Emphasis

NASA’s Performance Plans do not show a clear linkage between its strategic goals and the human
resources needed to accomplish the goals. GPRA requires a description of how goals and objectives
are to be achieved, including a description of the operational processes, skills, and technology, and the
human, capital, information, and other resources required to meet those goals and objectives. GAO
reviewed and reported on NASA’s Fiscal Year 1999 and 2000 Performance Plans 8 and determined
that the plans complied with the requirements of GPRA, but noted that the plans could be improved by
linking the strategic goals to specific resources rather than NASA’s higher level presentation of
identifying funding requirements by Enterprise.

NPG 7120.5A is intended to support the accomplishment of NASA’s programs and projects,
consistent with established Agency strategic planning. While there is a clear link between the NPG and
the Strategic Plan, neither document emphasizes the link between human resources and the
accomplishment of strategic goals. The focus of the NPG is delivering products on schedule, and within
budget, while satisfying the requirements of multiple stakeholders and customers. NASA has no
assurance that staffing is aligned with strategic goals and that the workforce is


6
  GAO issued the Standards for Internal Control in the Federal Government GAO/AIMD-99-21.3.1.
7
  The publication on Strategic Human Resources Management: Summary Report of a Roundtable Discussion,
October 22, 1998, U.S. Office of Personnel Management Office of Merit Systems Oversight and Effectiveness,
provides detailed reasons for this type of integration.
8
  The GAO reports were Managing for Results Observations on NASA’s Fiscal Year 1999 Performance Plan,
GAO/NSIAD-98-181, dated June 1998; and Observations on the NASA’s Annual Performance Plan for Fiscal Year
2000 (still in draft), dated April 1999.
                                                           3
used appropriately and managed effectively without including strategic human resources management in
its strategic planning process and in its guidance on the management of programs and projects.

Headquarters ELV Office Staffing Assessment

The Program Management Plan assigned OSF the responsibility for defining top-level ELV Program
requirements as well as program oversight, evaluation, and assessment. This responsibility includes an
assessment of program implementation, program content, schedule, and changes necessary to meet
requirements and available resources (see Appendix C). The OSF, in fulfilling its responsibilities,
established a staffing level of 1249 for the Kennedy ELV Program Office. Table 1 shows the level of
actual (fiscal year (FY) 1998 and prior) and OSF projected
(FY 1999 through FY 2002) civil servant support for the ELV Office.


                                    Table 1. Civil Servant Support for the ELV Office


                                                  Civil Servant Workforce

                                 400
                                 350
                                 300
                    Employees*




                                 250                                                        ELV OFFICE
                                 200                                                        OSF
                                 150
                                 100
                                  50
                                   0
                                       r

                                             97


                                                     98


                                                            99


                                                                   00


                                                                          01


                                                                                 02
                                     io
                                   Pr

                                           FY


                                                   FY


                                                          FY


                                                                 FY


                                                                        FY


                                                                               FY




                                                             Year

                 *See footnote number 9.


The Director, ELV Requirements, NASA Headquarters, based the staffing level on 6 to 8 launches a
year. The staffing level did not include missions in work.10 The launch rate from 1997 to 1998 was less
than 5 per year (Table 2) with 18 to 25 missions in work (Table 3). The launch rate for 1999, and
beyond, is 10 or more (Table 2) and the numbers of missions in work is about 40 per year (Table 3).




9
    Staffing levels are based on “full-time equivalents,” which is equal to a work-year of 2,080 hours.
10
     “Missions in work” refers to the 24- to 36-month lead time prior to a launch when work is being performed.

                                                                  4
                                                           Table 2. Launch Rate

                                                                Launch Rate

                                    15




                                    10
                         Launches




                                        5




                                        0
                                             FY97    FY98      FY99          FY00    FY01    FY02
                                                                      Year




                                                      Table 3. Missions in Work


                                                             Missions in Work

                              40


                              30
              Missions




                              20


                              10


                                    0
                                            FY97    FY98      FY99         FY00     FY01    FY02
                                                                  Year




The Director's estimated staffing level also assumed a downsizing of the number of employees needed to
perform the mission of the ELV Program Office based on: (1) economies of scale that have not
materialized and (2) the anticipation that qualified staff would transfer from Goddard and Glenn. Less
than half of the expected staff from Goddard and from Glenn transferred to Kennedy. Table 4 shows
the staff that transferred from each Center.

                                                                       5
                          Table 4. Staff Transferred From Other Centers

                                 From          From Glenn     From             From Other
                                 Goddard                      Marshall
        ELV Technical                8               8             3                 2
        Procurement                  1               1             0                 0
        Budget/Accounting            3               0             0                 0
        Totals                      12               9             3                 2


The staffing assessment the OSF performed does not describe how the 124 staffing level would
accomplish the strategic goals of the ELV Office or discuss human resources planning issues such as the
retention and recruitment of staff as discussed in the FMFIA and GPRA.

Kennedy ELV Program Office Staffing Assessment

The Kennedy ELV Program Office performed a “bottoms-up” staffing assessment to (1) determine the
staffing level needed to address the current launch rate/missions in work (Tables 2 and 3) and (2) meet
the insight and approval requirements of NASA Management Instruction (NMI) 8610.23, “Technical
Oversight of ELV Launch Services” (Appendix D). The ELV Program Office used launch experience
to determine the staffing level required to meet its current launch schedule, but believes it needs an
additional 20 to25 employees to accomplish its mission and lacks lead engineers on the mission
integration teams. Similar to the OSF assessment, the Kennedy ELV Program Office assessment did
not consider how the staffing level would accomplish the strategic goals of the ELV Program Office or
the issues of human resources planning such as retention or recruitment of staff as prescribed by the
FMFIA and GPRA.

Impact of Not Aligning Staffing of the ELV Program with Strategic Goals

The ELV Office is unable to meet current customer demand without the use of overtime and
compensatory time, and future launch demand is expected to increase (Tables 1 and 2). If the Kennedy
ELV Program Office does not align its staffing with its strategic goals, the lack of staffing could
adversely impact the ELV Program’s ability to provide highly reliable, on-time, cost-effective launch
services that meet or exceed customer requirements. The cost and scheduling of Earth Science and
Space Science missions could also be adversely affected. In addition, the ELV Program Office will not
have adequate staff to fulfill the government approval and insight requirements of NMI 8610.23
(Appendix D). The ELV Office Deputy Program Manager stated that the understaffing is not a safety
concern, but that it has affected employee morale. He further stated that the fiscal year 1999 Kennedy
buy-outs are expected to further deplete the number of staff with required skills and abilities. The ELV
Program Office Integration Manager stated that Kennedy has already moved staff from other program
areas to the ELV Office to help alleviate the staffing concerns, but that additional staff is still needed.




                                                    6
After the completion of our field work in August 1999, we learned that the OSF established
an independent review team to assess the technical oversight process employed by the Kennedy ELV
team for the Terra Mission11 and to identify any areas that could enhance the probability of mission
success. This team focused on the Terra launch service, but provided OSF an independent opinion on
broader management issues that, in our opinion, supports our conclusion that the Kennedy ELV
Program Office is not appropriately staffed to meet its current launch schedule (Appendix E).

Conclusion

NASA must incorporate strategic human resource management into all aspects of strategic planning to
ensure that Agency goals can be achieved. The understaffing of the Kennedy ELV Program Office is an
example of the impact that human resources can have not only on the understaffed program, but also on
the other NASA programs from which staff was moved to help alleviate the staffing concerns of the
ELV Program Office. In addition, NASA can strengthen its Performance Plan by fully portraying how
NASA’s strategies and resources will help it achieve its performance goals.

Recommendations, Management’s Response, and Evaluation of Response

The Associate Administrator for Space Flight should:

1. Establish clear, realistic staffing goals that align with the strategic performance goals of
   the ELV Program Office at Kennedy Space Center.

Management’s Response. Concur. The OSF authorized Kennedy to hire 15 additional engineers in
support of the ELV Program Office. An additional augmentation of as many as 14 civil service hires are
anticipated in FY 2001, pending the outcome of the ongoing budget process. The complete text of
management’s response is contained in Appendix F.

Evaluation of Management’s Response. Management’s actions are responsive to the
recommendation. The recommendation is resolved and dispositioned.

2. Develop strategic human resources management strategies to ensure continuity of needed
   skills and abilities.




11
 Terra is the flagship of the Earth Observing System, a series of spacecraft that represent the next landmark steps in
NASA's leadership role to observe the Earth from the unique vantage point of space. Focused on key
measurements identified by a consensus of U.S. and international scientists, Terra will enable new research into the
ways that Earth's lands, oceans, air, ice, and life forms function as a total environmental system. Terra was launched
December 18, 1999, from Vandenberg Air Force Base, California.


                                                          7
Management’s Response. Concur. The OSF has authorized immediate additional hiring at all OSF
Centers to address workload requirements and to ensure continuity of needed skills and abilities to meet
the expected increase pace of activity.

Evaluation of Management’s Response. Management’s actions are responsive to the
recommendation. The recommendation is resolved and dispositioned.

3. The Chief Engineer should incorporate the following into the NPG 7120.5A:

•   A clear link between strategic performance goals and the resources that will accomplish
    those goals.

Management’s Response. Concur. The Program Commitment Agreement (PCA) is the agreement
between the Administrator and the Enterprise Associate Administrator that documents the Agency’s
commitment to execute the program requirements within established constraints. Appendix E.2 of the
PCA describes NASA documentation in NPG 7120.5A that addresses this requirement.

Evaluation of Management’s Response. Partially Responsive. Although the document described in
Appendix E.2 was used by the ELV Program Office at Kennedy, the human resources needed to
accomplish the goals of the program were not available. We believe that
the Program Commitment Agreement should be expanded to include staffing levels/skill mixes in the
cost commitments section. Recommendation 3 is resolved, but considered undispostioned pending
implementation of agreed-to corrective actions.

•   The strategic human resources management strategies needed to ensure continuity of
    needed skills and abilities.

Management’s Response. Concur. The OIG should provide language, with a proposed reference
location in the NPG that would address this concern. The language would be referred to the Program
Project Management Working Group for consideration and disposition.

Evaluation of Management’s Response. Partially Responsive. We believe that OSF should work
with the Human Resources and Education Functional Office Leadership Plan to develop policy to
implement this recommendation. This recommendation is resolved, but considered undispostioned
pending implementation of agreed-to corrective actions.




                                                   8
                  Appendix A. Objectives, Scope, and Methodology

Objective

The overall objective was to determine whether the SELVS II – KSC contracts were appropriately
planned and managed effectively. Specifically, we determined whether:

•   management oversight was adequate during and following the consolidation of the ELV Program
    Office at Kennedy,
•   the SELVS II - KSC contracts were properly designed to ensure mission performance, and
•   the SELVS II - KSC contracts are meeting the customer’s needs.

Scope and Methodology

During the survey, we reviewed the following documents:

•   Transition Plan for the Lead Center for the Acquisition and Management of ELV Launch Services
    at the John F. Kennedy Space Center, dated January 14, 1998
•   Draft Program Commitment Agreement Acquisition and Management of ELV Launch Services
    Mission Support, dated May 20, 1999
•   Implementation Plan, dated June 19, 1998, for Transferring Medium, Medium-Lite, Small, and
    Ultra-Lite Class Launch Services from Goddard Space Flight Center to Kennedy Space Center,
•   Transition Plan, dated July 17, 1997, for Transferring Program Management of Intermediate ELV
    Launch Services form Lewis Research Center to Kennedy Space Center,
•   Program Management Plan, dated November 10, 1998, for the Lead Center for the Acquisition
    and Management of ELV Launch Services at the John F. Kennedy Space Center
•   Kennedy ELV Office Staffing Plans, not dated
•   Charts, dated June 15, 1999, that showed revised OSF Staffing Plans beginning on July 3, 1997
•   NPG 7120.5A, NASA Program and Project Management Processes and Requirements
•   NASA Terra Independent Assessment Team Report, June 15, 1999

During the survey, we interviewed the following personnel:

•   NASA Headquarters, Kennedy, and Goddard program and contract officials.
•   Orbital Sciences Corporation and Coleman Research Corporation contract officials.
•   NASA Headquarters Associate General Counsel.




                                                   9
Appendix A

Management Controls Reviewed

We reviewed the following management controls: program management plans, transition plans,
implementation plans, and commitment agreements.

We considered controls adequate except for the lack of integration of strategic human resources
management into the NASA planning process and the specific effects it has had and will have on the
ELV Program Office at Kennedy. Details are in the finding section of the report.

Audit Field Work

We performed the audit field work from April through September 1999 at NASA Headquarters,
Goddard Space Flight Center, and Kennedy Space Center. We conducted the audit in accordance
with generally accepted government auditing standards.




                                                  10
                          Appendix B. Other Matters of Interest

Marshall Long-Term Agreements

The Transition Plan for the Lead Center for the Acquisition and Management of ELV Launch Services
at the John F. Kennedy Space Center, dated January 14, 1998, establishes Marshall’s responsibilities
as:

      •   Establishing qualification criteria for NASA’s acceptance of commercially available
          launch services to meet NASA’s needs.
      •   Supporting procurement development team and source evaluation board activities.
      •   Providing launch vehicle and propulsion engineering, including necessary assessments
          to confirm readiness for flight.
      •   Development of qualification criteria for new and future launch vehicles and vehicle
          configurations.


The transition plan also states that Kennedy intends to have long-term agreements with Marshall for
vehicle design engineering support functions. To date, Marshall and Kennedy officials have not
completed long-term agreements. Although we did not identify adverse conditions that occurred due to
the lack of the agreements, the ELV Program Office Program Manager should ensure that the long-term
agreements are completed to fulfill the requirements of the transition plan and his responsibilities under
NPG 7120.5A.




                                                      11
                              Appendix C. Program Management Plan


Section 5 Program Requirements, “Program Management Plan for the Lead Center for the Acquisition
and Management of Expendable Launch Vehicle Launch Services at the John F. Kennedy Space
Center (NASA Expendable Launch Vehicle Program), dated November 10, 1998,” establishes the
following:

       The ELV Program Office is responsible for effectively and efficiently satisfying the
       program requirements of NASA Headquarters operating through OSF. The Headquarters
       Office of Space Flight is responsible for definition of top-level program requirements and
       ELV Program oversight, evaluation, and assessment. This responsibility includes
       development, coordination, and update of top-level requirements consistent with the
       strategic plan and customer requirements; external advocacy for the program and
       broadening of the customer base; and recommendation and allocation of ELV budgets.
       Responsibility for program oversight, evaluation, and assessment includes assessment of
       program implementation, program content, schedule, and changes necessary to meet
       requirements and available resources. OSF also manages and provides status to the
       Headquarters-level Program Management Council (PMC); establishes and tracks program
       metrics; and chairs the ELV Flight Planning Board. The Director, ELV Requirements has
       been assigned these responsibilities for OSF.

       The Director, ELV Requirements, OSF, addresses issues related to policy, direction, and
       guidance of NASA’s ELV Program. The Director, through the Flight Planning Board,
       approves class of service, vehicle configuration, and launch date by letter of authority.
       Upon receipt of the letter of authority, the ELV Program Office acquires and manages the
       launch services. Currently, these launch services, which are defined as projects, include
       Ultra-Lite, Small, Med-Lite, Medium, and Intermediate class services for launch of NASA,
       NASA-sponsored, and other government payloads.




                                                       12
                            Appendix D. Required Approval and Insight

NASA Management Instruction 8610.23, “Technical Oversight of ELV Launch Services,” establishes
the following requirements:

       Government Approval is required for the following specific areas:
       • Spacecraft-to-launch vehicle interface control documents/drawings
       • Decisions/resolutions of action items as determined by joint NASA/contractor
           Mission Integration working groups
       • Mission-unique hardware design analysis, manufacture, and test
       • Mission unique software design, analysis, and test
       • System Effectiveness Plan (SEP), which shall reflect latest revisions of NASA
           Handbooks (NHB) 5300.4 (lA), 5300.4 (1B), and 1700.1 guidelines
       • Changes to the SEP
       • Top-level test plans, requirements, and success criteria for Integrated Vehicle
           Systems Tests and Launch Site Vehicle assembly and test
       • Launch Commit Criteria
       • Closeout of actions from NASA chaired Mission, Launch, and Flight readiness
           reviews
       • Spacecraft handling procedures and deviations
       • Integrated spacecraft/vehicle mate, test, and closeout procedures and deviations
       • Integrated spacecraft/vehicle mate, test, and closeout as-run procedures and
           deviations
       • Launch countdown procedures and deviations that affect spacecraft/vehicle
           integrated assembly
       • Launch Go/No-Go

       Government Insight is required for the following specific areas:
       • Baseline vehicle design, analyses, and configuration management
       • Production program reviews, plans, and schedules
       • Production and systems test Material Review Boards
       • Critical flight hardware pedigree
       • Safety, Reliability, Maintainability, and Quality Assurance (SRM&QA) compliance
          evaluations
       • Pre-ship reviews
       • Design reviews
       • Qualification reviews
       • Major/critical problems
       • Major system and integrated systems tests
       • Post-test data
       • Anomaly resolutions/Failure analysis
       • Vehicle/ground support equipment procedures
       • Launch site support work schedules and plans
       • Launch site vehicle preparations and closeout data
       • Vehicle walkdown inspections
       • Operations and procedures discipline
       • Work practices and documentation
       • Conduct of contractor chaired Mission, Launch, and Flight Readiness Reviews
       • Postflight vehicle, tracking, and range data
       • Postflight anomaly investigations/closeouts



                                                     13
                               Appendix E. Independent Review Team

“NASA Terra Independent Assessment Team: Report to NASA Headquarters, June 15, 1999,”
provided recommendations that, if implemented, will enhance the probability of launch success.
Although the team focused on Terra, it became clear that Terra could not be viewed as an isolated
mission. Broader management issues, although not unique to Terra, could affect the reliability of the
Terra launch. These issues are associated with the ELV program transition. The Independent
Assessment Teams’ observations included the following:

        •   The ELV staff appears not to be a high priority in terms of Kennedy management
            attention.
        •   There is an apparent lack of planning for future viability of the ELV organization.
        •   No succession planning exists to account for loss of critical personnel.
        •   The current ELV program complement is inadequate for maintaining pre-transition
            levels of Insight/Approval across assigned missions.
        •   Staff reductions are planned.
        •   Kennedy ELV personnel will eventually burn out, be threatened by negative
            personal/family consequences and, either literally or functionally, abandon the
            program.
        •   The performance level of people working under such conditions eventually declines.
        •   Without implementation of a staff development plan, post-transition shortfalls in
            experience will not be rectified.
        •   The near-term, inevitable attrition of current staff members will seriously degrade
            Kennedy’s ability to perform value-added Insight.




                                                      14
Appendix F. Management’s Response




               15
Appendix F




             16
     Appendix F




17
Appendix F




             18
                             Appendix G. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

Director, Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Director of Management, Office of Management and Budget
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
 Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
                                                   19
Appendix G

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees
(Cont.)

Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                                 20
                      NASA Assistant Inspector General for Auditing
                                     Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the usefulness
of our reports. We wish to make our reports responsive to our customers’ interests,
consistent with our statutory responsibility. Could you help us by completing our reader
survey? For your convenience, the questionnaire can be completed electronically through our
homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant
Inspector General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Final Report on the Audit of Management and Administration of International
Agreements at NASA

Report Number:                                        Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                      Agree               l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent Fair
      Very Good   Poor
      Good

If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                  Media
       NASA Employee                        Public Interest
       Private Citizen                      Other:
       Government:               Federal:        State:       Local:


May we contact you about your comments?

Yes: __________                             No: __________

Name: ____________________________

Telephone: ________________________

Thank you for your cooperation
Major Contributors to the Report

Daniel J. Samoviski, Program Director, Earth and Space Science Audits

Esther A. Judd, Program Manager, Earth and Space Science Audits

Nancy C. Cipolla, Report Process Manager

Iris Purcarey, Program Assistant
